HHS/OIG, Audit - "Review of High Dollar Payments for Oklahoma Medicare
Part A Claims processed by Chisholm Administrative Services for the period
January 1, 2003 Through December 31, 2003," (A-06-07-00090)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar
Payments for Oklahoma Medicare Part A Claims Processed by Chisholm
Administrative Services for the Period January 1, 2003 Through December 31, 2003," (A-06-07-00090)
December 17, 2007
Complete Text of Report is available in PDF format (159 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether
high-dollar Medicare payments that Chisholm Administrative Services made to
providers for inpatient services for calendar year 2003were appropriate.  The high-dollar Medicare inpatient payments made in 2003 were
appropriate.  As a result, this report contains no recommendations.